HHS/OIG, Audit - "Review of The Maine Claims Management System," (A-01-05-00007)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of The Maine Claims
Management System," (A-01-05-00007)
August 21, 2006
Complete Text of Report is available in PDF format (669 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency
had effective controls to ensure that claims processed and adjudicated through
the Maine Claims Management System (MECMS) from January 21, 2005, through
December 31, 2005, were in compliance with Medicaid requirements.  We found the
State agency did not establish effective controls to ensure that Medicaid claims
were processed correctly and paid appropriately, and that all claim-related
expenditures were reported accurately for Federal reimbursement.
We
recommended the State agency reprocess all claims processed through MECMS after
the  CMS certifies the system; continue to
reconcile interim payments; maintain supporting documentation; continue to ensure all MECMS
claims processing and reporting controls are implemented; ensure that MECMS
reporting controls adequately identify
overpayments related to third party liability and over-utilization of services;
ensure that all overpayments are reported within 60 days of discovery; and
submit quarterly data from its Medicaid Statistical Information System to CMS
after reprocessing the claims.  The State agency generally concurred with our
recommendations except for the recommendation to reprocess all claims after CMS
certifies the system.